                               OFFICE OF INSPECTOR GENERAL
                                                MEMORANDUM



     DATE: February 9, 1998

       TO: Daniel Phythyon, Chief
           Wireless Telecommunications Bureau

     FROM: H. Walker Feaster III, Inspector General

 SUBJECT: Special Review of Auction Application Security

As part of our on-going effort to ensure protection of the
Commission's information resources, this office has recently
completed a review of the security of the FCC Auction
Application.   To conduct this review, the OIG established task
order number two (2) under our contract with TWM Associates, Inc.
(hereafter referred to as "TWM").

On September 16, 1996, the Office of Inspector General issued a
Special Review report, Report No. 96-6, entitled "Special Review
of Auction Site Information Technology (IT) Security." This
report identified the results of our review of Information
Technology (IT) security at the Commission's 2 Massachusetts
Avenue facility. Because of the timeframe under which this
project was completed, several critical components of the auction
system were not evaluated including the auction application
(i.e., FCC Auctions System), IT security at the Gettysburg
facility, and Internet connectivity (including firewall
configuration). This review was intended to evaluate the auction
application component of the overall automated auction program.

The specific objectives of this task were twofold. The objective
of phase one was to identify and evaluate the system of controls
established within the FCC Auctions System application to ensure
that they provide a secure environment for participants in the
spectrum auction process. This evaluation included the complete
system of controls including automated controls (e.g., those
controls employed by the PowerBuilder and Sybase DBMS software)
and manual controls (e.g., distribution of passwords, resetting
of accounts, etc.). To accomplish this objective, TWM reviewed
system documentation and interviewed system management personnel
to identify existing manual and automated controls; designed
tests for each control identified and conducted tests to
determine operational status; identified areas where controls can
be improved; and developed recommendations for specific control
improvements.
The objective of phase two of the review was to examine the
controls associated with system operation and maintenance. These
controls should assure that adequate processes have been
developed for operating the Auction System and monitoring and
controlling changes to the system. To accomplish these
objectives, TWM reviewed policies, procedures, and standards
associated with Auction System operation and maintenance;
interviewed personnel involved in the systems operation and
maintenance process; examined system documentation (e.g., flow
charts, data diagrams, etc.) to verify that all system
modifications are accurately reflected; identified areas where
controls can be improved; and developed recommendations for
specific control improvements.

In general, our review indicates that the Auction Application
remote bidding software functions as it was intended for bidders
participating in auctions. However, the review team did identify
control improvements which can be made in the areas of
segregation of duties, accountability within the application,
adequacy of contingency planning, and overall access controls.
Many of these control improvements were being addressed at the
time of review completion. In addition, we observed that
Commission employees and contractor personnel managing the site
are committed to continual improvement of security as part of
their operational mission.

A copy of the Special Review Report prepared by TWM and
containing specific observations and recommendations is attached.
 This report, Report No. 97-4 entitled "Special Review Auction
Application", contains sensitive information. For that reason,
we recommend that you restrict distribution of this report to
those personnel in your organization with a need for the
information. If you would like to discuss this review please
contact me at 418-0470.

Attachment

CC:   John Giuli, WTB Auction Division (with attachment)
      David Jarrell, Computer Security Officer (with attachment)
